Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



 RHODE ISLAND’S MANAGED CARE
  CONTRACT SETTLEMENTS WITH
NEIGHBORHOOD HEALTH PLAN OF
 RHODE ISLAND DID NOT ALWAYS
COMPLY WITH FEDERAL AND STATE
        REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                        April 2013
                                                      A-01-12-00011
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY


 Rhode Island’s managed care contract settlements with Neighborhood Health Plan of
 Rhode Island did not always comply with Federal and State requirements.

WHY WE DID THIS REVIEW

Prior Office of Inspector General reviews found that some States did not comply with managed
care contract settlement requirements, which resulted in refunds due to the Federal Government.
The Rhode Island Executive Office of Health and Human Services, Department of Human
Services (State agency), contracts with managed care organizations (MCO) to provide medical
services to recipients enrolled in the Medicaid program for a fixed monthly capitation payment.
The State agency’s contract with Neighborhood Health Plan of Rhode Island (Neighborhood),
the largest MCO in the State, includes contract settlement provisions for each of the four
Medicaid population groups. For the contract period ended June 2010, the State agency made
capitation payments for medical care totaling $339 million to Neighborhood.

Our objective was to verify whether the State agency’s managed care contract settlements with
Neighborhood complied with Federal and State requirements.

BACKGROUND

The State agency’s contract with Neighborhood details the capitation payment rates set for the
contract period for each Medicaid population, the reporting requirements for Neighborhood, and
the contract settlement methodology. In addition, the State agency’s policies and procedures
outline its oversight of the financial terms of the contract, including the State agency’s contract
settlement process. The State agency determines the final contract settlements for the contract
period by comparing Neighborhood’s reported medical expenses and the medical expense
portion of the capitation payments paid to Neighborhood. If the medical expenses are greater
than the medical expense portion of capitation payments, a settlement payment may be due from
the State agency to Neighborhood. If the medical expenses are less, a settlement payment may
be due from Neighborhood to the State agency.

HOW WE CONDUCTED THIS REVIEW

We reviewed the monthly medical expense reports submitted by Neighborhood to the State
agency for each of the four Medicaid population groups for the contract period July 2009
through June 2010. We also reviewed the State agency’s contract settlement calculations for the
contract period.

WHAT WE FOUND

The State agency did not always make managed care contract settlements in accordance with
Federal and State requirements. Specifically, the State agency did not always determine the
managed care contract settlements in accordance with the terms of its contract with
Neighborhood. In addition, the State agency did not consistently follow its policies and

Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                      i
procedures regarding the calculation of the final contract settlement amounts and the reporting
requirements for Neighborhood. Accordingly, we do not have reasonable assurance that:

    •	 the State agency has refunded the Federal share of all contract settlements due from

       Neighborhood,


    •	 the contract settlements were calculated using consistent and reliable capitation payment
       data, and

    •	 the contract settlements were calculated using accurate medical expense data.

WHAT WE RECOMMEND

We recommend that the State agency:

    •	 improve its existing policies and procedures to ensure that any refunds due to the Federal
       Government are identified and returned in a timely manner,

    •	 follow its existing policies and procedures to ensure that managed care contract

       settlements are based on consistent and reliable capitation payment data, and


    •	 strengthen its oversight of the Medicaid medical expenses reported by Neighborhood to
       ensure that managed care contract settlements are based on accurate medical expense
       data.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our first and second
findings and recommendations but disagreed with our third finding and recommendation.
Specifically, the State agency disagreed with our recommendation to strengthen its oversight of
the Medicaid medical expenses reported by Neighborhood. The State agency stated that it
receives attestation statements from Neighborhood monthly. In addition, the State agency stated
that it validates Neighborhood’s premium and claims data submissions with several financial
data sources and that it relies on Neighborhood’s outside auditors who attest to the accuracy and
validity of Neighborhood’s financial statements.

In response to the State agency’s comments, we maintain that our findings and recommendations
are valid. The State agency’s policies and procedures require that all medical expense reports be
accompanied by a document attesting to the accuracy and completeness of the report. However,
the State agency did not explain why it could not provide the monthly attestations that
Neighborhood submitted during our audit period.




Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                  ii
                                                    TABLE OF CONTENTS


                                                                                                                                     Page

INTRODUCTION...................................................................................................................1


           Why We Did This Review ..........................................................................................1


           Objective ......................................................................................................................1


           Background ................................................................................................................1

                 Medicaid Program.............................................................................................1

                 Rhode Island’s Medicaid Managed Care Program ...........................................1

                 Monthly Medical Expense Reporting ...............................................................2

                 Managed Care Contract Settlements.................................................................2


           How We Conducted This Review ..............................................................................3


FINDINGS ...............................................................................................................................3


           Federal and State Requirements ...............................................................................3

                 Federal Regulations ..........................................................................................3

                 Contract Requirements......................................................................................4

                 State Agency’s Policies and Procedures ...........................................................4


           Contract Settlements Not Determined in Accordance With Contract

              and State Agency’s Policies and Procedures ......................................................4

                 Contract Settlements Not Made in a Timely Manner .......................................4

                 Contract Settlements Not Calculated Consistently ...........................................5

                 Signed Attestations Not Obtained ....................................................................5


RECOMMENDATIONS........................................................................................................5


STATE AGENCY COMMENTS ..........................................................................................6


OFFICE OF INSPECTOR GENERAL RESPONSE..........................................................6


APPENDIXES

           A: Audit Scope and Methodology.............................................................................7


           B: State Agency Comments .......................................................................................9





Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                                                                iii
                                          INTRODUCTION


WHY WE DID THIS REVIEW


Prior Office of Inspector General reviews found that some States did not comply with managed
care contract settlement requirements, which resulted in refunds due to the Federal Government.
The Rhode Island Executive Office of Health and Human Services, Department of Human
Services (State agency), contracts with managed care organizations (MCO) to provide medical
services to recipients enrolled in the Medicaid program for a fixed monthly capitation payment.
The State agency’s contract with Neighborhood Health Plan of Rhode Island (Neighborhood),
the largest MCO in the State, includes contract settlement provisions for each of the four
Medicaid population groups. For the contract period ended June 2010, the State agency made
capitation payments for medical care totaling $339 million to Neighborhood.

OBJECTIVE

Our objective was to verify whether the State agency’s managed care contract settlements with
Neighborhood complied with Federal and State requirements.

BACKGROUND

Medicaid Program

Title XIX of the Social Security Act (the Act) requires the Medicaid program to provide medical
assistance to certain low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Rhode Island, the State agency administers the
State’s Medicaid program.

The Federal Government pays a share of a State’s expenditures for medical assistance under the
Medicaid State plan (the Act § 1903(a)). The method of calculating the Federal share, called the
Federal Medical Assistance Percentage (FMAP), is set forth in sections 1905(b) and 1101(a) of
the Act. After a State has calculated the medical assistance it furnishes under its State plan, it
must return to the Federal Government the Federal share of the net amount it has recovered (the
Act § 1903(d)(3)(A)). States report Medicaid expenditures to CMS, and credit CMS with any
refunds due, on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program.

Rhode Island’s Medicaid Managed Care Program

Section 1115 of the Act provides the Secretary of the Department of Health and Human Services
(Secretary) with broad authority to authorize demonstration projects to assist in promoting the
objectives of the Medicaid program. Rhode Island’s Section 1115 waiver allows the State


Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                 1
agency to contract with MCOs to provide medical services to recipients enrolled in the Medicaid
program.

Managed care is a system for delivering health care that is intended to improve the quality of
care and to control costs. In this regard, the State agency pays MCOs a fixed monthly capitation
payment for each enrollee to provide Medicaid-covered services. This approach is different from
a fee-for-service system, in which the State agency pays providers for each service they furnish.

Monthly Medical Expense Reporting

The State agency’s contract with Neighborhood requires the MCO to report the paid medical
expenses and capitation payments to the State agency within 45 days after the end of each
month. The State agency also requires that all medical expense reports must be accompanied by
a document attesting to the accuracy and completeness of the report. The contract requires
Neighborhood to submit separate monthly medical expense reports for each of the Medicaid
populations it covers:

                    •   RIte Care core,

                    •   Children with Special Health Care Needs,

                    •   Children in Substitute Care arrangements, and

                    •   Rhody Health Partners.

After a 12-month period (run-out period) to account for any outstanding claims or adjustments
related to the contract period, the State agency evaluates the reasonableness of the medical
expenses reported by Neighborhood in order to determine if the monthly reports are acceptable.

Managed Care Contract Settlements

As an incentive to manage costs, the State agency includes settlement provisions in
Neighborhood’s managed care contract. Through this mechanism, known as “risk share and gain
share,” the State agency shares in any financial losses and gains experienced by Neighborhood if
actual medical expenses during the contract period are less than or exceed predetermined
threshold amounts defined in the contract. The medical expense portion of the capitation
payments made to Neighborhood determines the threshold amounts.

After the run-out period, the State agency determines the final contract settlements for the
contract period by comparing Neighborhood’s reported medical expenses and its medical
expense portion of the capitation payments. If the medical expenses are greater than the medical
expense portion of capitation payments, a risk share payment may be due from the State agency
to Neighborhood. If the medical expenses are less, a gain share payment may be due from
Neighborhood to the State agency.




Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                 2
HOW WE CONDUCTED THIS REVIEW

We reviewed the monthly medical expense reports submitted by Neighborhood to the State
agency for each of the four Medicaid population groups for the contract period July 2009
through June 2010. We also reviewed the State agency’s contract settlement calculations for the
contract period. Based on these calculations, the State agency claimed risk share payments to
Neighborhood totaling $7,965,028 ($4,918,873 Federal Share) and returned gain share payments
from Neighborhood totaling $6,009,160 ($3,131,974) on Form CMS-64.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                              FINDINGS

The State agency did not always make managed care contract settlements in accordance with
Federal and State requirements. Specifically, the State agency did not always determine the
managed care contract settlements in accordance with the terms of its contract with
Neighborhood. In addition, the State agency did not consistently follow its policies and
procedures regarding the calculation of the final contract settlement amounts and the reporting
requirements for Neighborhood. Accordingly, we do not have reasonable assurance that:

    •	 the State agency has refunded the Federal share of all contract settlements due from

       Neighborhood,


    •	 the contract settlements were calculated using consistent and reliable capitation payment
       data, and

    •	 the contract settlements were calculated using accurate medical expense data.

FEDERAL AND STATE REQUIREMENTS

Federal Regulations

The Federal Government is entitled to the proportionate share, determined by the Secretary, of
the net amount recovered by the State with respect to medical assistance furnished under the
State plan (the Act § 1903(d)(3)(A)).

Federal regulations require States that provide managed care using risk-based contracts to
develop actuarially sound capitation rates based on the cost and utilization of Medicaid State
plan services. The contract also must specify the payment rates and any risk-sharing



Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                  3
mechanisms, and the actuarial basis for computation of those rates and mechanisms (42 CFR §
438.6(c)).

Contract Requirements

The State agency’s contract with Neighborhood details the capitation payment rates set for the
contract period for each Medicaid population, the reporting requirements for Neighborhood, and
the contract settlement methodology. The contract also requires Neighborhood to submit
historical encounter data, which details all claims paid for services rendered to enrollees during
the contract period. In addition, the contract requires that the two parties resolve any questions
regarding the medical expense reports 30 days after they are submitted to the State agency and
that settlements be made 45 days after the reports have been accepted by the State agency.

State Agency’s Policies and Procedures

The State agency’s policies and procedures outline its oversight of the financial terms of the
contract, including Neighborhood’s reporting requirements and the State agency’s contract
settlement process. The policies and procedures also require that the State agency use the
capitation payment figures from its Medicaid Management Information System (MMIS) to
determine the final contract settlement amounts. In addition, the State agency is required to
obtain from Neighborhood a signed document attesting to the accuracy and completeness of the
medical expense reports.

CONTRACT SETTLEMENTS NOT DETERMINED IN ACCORDANCE WITH
CONTRACT AND STATE AGENCY’S POLICIES AND PROCEDURES

Contract Settlements Not Made in a Timely Manner

The State agency did not always comply with the contract requirements regarding the timeliness
of the contract settlements. Specifically, the contract requires both parties to resolve any
questions within 30 days after the submission of the monthly reports and then to make the
settlement payments 45 days after the reports have been accepted by the State agency. Although
the State agency completed the final settlements for three of the population groups, it had not
determined by the time of this review the final settlement for the Rhody Health Partners group
even though the run-out period ended in June of 2011. According to the State agency, the delay
was caused by a discrepancy between the Medicaid medical expenses reported by Neighborhood
for the contract period and the State agency’s analysis of the historical encounter data. Federal
regulations state that the Federal Government is entitled to the Federal share of the net amount
recovered by a State with respect to its Medicaid program. However, the State agency has been
unable to determine if it should make a final settlement payment to Neighborhood or if it is owed a
final payment. As a result, we do not have reasonable assurance that the State agency has refunded
the Federal share of all contract settlements due from Neighborhood.




Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                 4
Contract Settlements Not Calculated Consistently

The State agency did not always follow its policies and procedures regarding the data source of
the capitation payment figures used to determine the final contract settlement amounts.
Specifically, the State agency’s policies and procedures require that it use the capitation payment
figures from MMIS. MMIS is the most appropriate data source to determine the settlements
amounts, since it processes the Medicaid claims that are reported on Form CMS-64. While the
State agency used MMIS data to calculate the settlement amount for the Rite Care population
group, it used the capitation payment totals submitted by Neighborhood on the monthly medical
expense reports to calculate the settlement amounts for the Children with Special Health Care
Needs and Children in Substitute Care population groups. As a result, we do not have reasonable
assurance that the capitation payment data used to calculate the final settlement amounts was
consistent and reliable.

Signed Attestations Not Obtained

The State agency did not always follow its policies and procedures regarding the monthly
attestations obtained from Neighborhood. Specifically, the State agency’s policies and
procedures require that all medical expense reports be accompanied by a document attesting to
the accuracy and completeness of the report. However, the State agency could not provide the
monthly attestations for our audit period. Instead, it provided a signed document from
Neighborhood dated November 2012 that attested to the accuracy of the reported information for
State fiscal years 2010 and 2011. Moreover, the State agency did not validate the historical
encounter data submitted by Neighborhood or reconcile the medical expenses reported by
Neighborhood to detailed source documentation. Although the State agency completed an
analytical review of the reported medical expenses at an aggregate level, this review was not as
effective as monthly attestations, data validation, or a complete reconciliation would have been
in ensuring the completeness of the monthly reports. As a result, we do not have reasonable
assurance that the medical expense data used to calculate the final settlement amounts was
accurate.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •	 improve its existing policies and procedures to ensure that any refunds due to the Federal
       Government are identified and returned in a timely manner,

    •	 follow its existing policies and procedures to ensure that managed care contract

       settlements are based on consistent and reliable capitation payment data, and


    •	 strengthen its oversight of the Medicaid medical expenses reported by Neighborhood to
       ensure that managed care contract settlements are based on accurate medical expense
       data.




Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                 5
                                  STATE AGENCY COMMENTS


In written comments on our draft report, the State agency agreed with our first and second
findings and recommendations but disagreed with our third finding and recommendation.
Specifically, the State agency disagreed with our recommendation to strengthen its oversight of
the Medicaid medical expenses reported by Neighborhood. The State agency stated that it
receives attestation statements from Neighborhood monthly. In addition, the State agency stated
that it validates Neighborhood’s premium and claims data submissions with several financial
data sources and that it relies on Neighborhood’s outside auditors who attest to the accuracy and
validity of Neighborhood’s financial statements.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the State agency’s comments, we maintain that our findings and recommendations
are valid. The State agency’s policies and procedures require that all medical expense reports be
accompanied by a document attesting to the accuracy and completeness of the report. However,
the State agency did not explain why it could not provide the monthly attestations that
Neighborhood submitted during our audit period. Moreover, we agree with the State agency’s
assertion that it reviews the data submitted by Neighborhood at an aggregate level by comparing
the data to internal financial statements and encounter data. However, the State agency’s review
process does not include a detailed reconciliation of the paid claims submitted by Neighborhood.
For example, the State agency does not review a sample of paid claims in order to verify their
accuracy and allowability. Therefore, the monthly attestations are important to ensure the
completeness of the monthly reports submitted by Neighborhood.

The State agency’s comments are included in their entirety as Appendix B.




Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

We reviewed the monthly medical expense reports submitted by Neighborhood to the State
agency for each of the four Medicaid population groups for the contract period July 2009
through June 2010. During the period, Neighborhood reported paid medical expenses of
approximately $346 million, and the medical portion of capitation payments received from the
State agency totaled $339 million.1 We also reviewed the State agency’s contract settlement
calculations for the contract period. Based on these calculations, the State agency claimed risk
share payments to Neighborhood totaling $7,965,028 ($4,918,873 Federal Share) and returned
gain share payments from Neighborhood totaling $6,009,160 ($3,131,974) on Form CMS-64.

Our objective did not require an understanding or assessment of the complete internal control
structures at the State agency. Rather, we limited our review to those controls that were
significant to the objective of our audit.

We performed our fieldwork at the State agency in Cranston, Rhode Island, from June 2012
through January 2013.

METHODOLOGY

To accomplish our audit objective, we:

    •	 reviewed applicable Federal and State laws, regulations, and guidance;

    •	 interviewed officials from CMS, the Rhode Island Office of the Auditor General, and the
       State agency;

    •	 reviewed previous audits of the State agency;

    •	 reviewed the State agency’s contract with Neighborhood to determine the capitation
       payment rates per member per month, the monthly reporting requirements, and the
       methodology for calculating the contract settlements for each of the four Medicaid
       population groups;

    •	 reviewed the monthly medical expense reports and other supporting documentation submitted
       by Neighborhood to the State agency;

    •	 reviewed the State agency’s contract settlement calculations and the State agency’s

       reconciliations of the total medical expenses and capitation payments reported by

       Neighborhood;



1
  The State agency calculated the contract settlements for Rhody Health Partners for the period April 2009 through
June 2010. Therefore, Neighborhood also included the medical expenses and capitation payments for April 2009
through June 2009 in its monthly reports submitted to the State agency for this Medicaid population group.

Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                                     7
    •	 recalculated and validated the contract settlements for each of the Medicaid population
       groups; and

    •	 determined whether funds returned to the State agency were properly credited on Form CMS­
       64.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)                 8
                           APPENDIX B: STATE AGENCY COMMENTS
                  STATE OF RHODE ISLAND AND PROVIDENCE PLANTATIONS

                  Executive Office of Health and Human Services
                  74 WestRoad
                  Hazard Bldg. #74
                  Cranston, RI 02920



March 25,2013

Michael J. Almstrong
Regional Inspector General
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region 1
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

Re: Report Number: A-01-12-00011

Dear Mr. Armstrong:

The Rhode Island Executive Office of Health and Human Services (EOHHS) values the opportunity to
comment on the Office oflnspector General's (OIG) Draft Report, dated February 27, 2013 and entitled
Rhode Island's Managed Care Contract Settlements With Neighborhood Health Plan ofRhode Island Did
Not Always Comply With Federal and State Requirements.

The EOHHS appreciates that there were no financial or material procedural findings that violated federal
and/or state regulations. EOHHS makes every effort to ensure that the terms of its managed care contract
agreements are followed and that the managed care settlements are in accordance with all the terms and
conditions of the contract. EOHHS takes the responsibility of safeguarding federal and state funds very
seriously and makes every effmi to ensure that disbursements are accurate and timely. Compliance with
federal and state regulations is a priority for EOHHS, as well as a strong program of oversight and
monitoring for the entire managed care Medicaid program.

Thank you for the recommendations that have been put forth and please be advised that EOHHS has
updated intemal policies and procedures to more accurately reflect processes that are in place.

EOHHS's responses to the OIG audit repmi recommendations are as follows:

       OIG Finding#1: Contract Settlement not made in a Timely Manner

       OIG Recommendation: We recommend that the State agency improve its existing policies and
       procedures to ensure that any refunds due to the federal government are identified and retumed in
       a timely manner.

       EOHHS Response: The EOHHS concurs with this finding and has modified its procedures to
       reflect its actions when claims data discrepancies occur. More specifically, the EOHHS and

   Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode         9
   Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)
   Neighborhood Health Plan of Rhode Island (NHPRI) had not completed their final settlement for
   the Rhody Health Patiners group due to a claims data discrepancy. The EOHHS and NHPRI are
   working on resolving this issue, and the targeted date to complete the final settlement is scheduled
   for May 31, 2013. Going forward, a new claims encounter data system, scheduled for
   implementation in July 2013, will allow for a speedier resolution of claims data discrepancies.

    OJG Finding #2: Contract Settlements not Calculated Consistently

    OIG Recommendation: We recommend the State agency follow its existing policies and
    procedures to ensure that managed care contract settlements are based on consistent and reliable
    capitation payment data.

    EOHHS Response: The EOHHS concurs with this finding and has amended its procedures to
    account for specific capitation rate adjustments when settling managed care contracts. To detail, in
    order to ensure that the financial statements for the current contract period were accurate, the
    cunent contract premium capitation rates for NHPRI final settlement for the Children with Special
    Health Care Needs and Children in Substitute Care were adjusted for retroactive, prior year,
    capitation rate adjustments.

    OJG Finding #3: Signed Attestations not Obtained

    OIG Recommendation: We recommend that the State agency strengthen its oversight of the
    Medicaid medical expenses reported by Neighborhood to ensure that managed care contract
    settlements are based on accurate medical expense data.

    EOHHS Response: The EOHHS respectfully disagrees with this finding. The EOHHS confirms
    that it receives attestation statements from NHPRI monthly. As outlined in the policies and
    procedures, the EOHHS validates NHPRI's premium and claims data submissions with several
    financial data sources including NHPRI' s intemal financial statements, regulatory financial repmis
    filed with the Rhode Island Department of Business Regulation, the MMIS, claims encounter data,
    and actuarial forecasts. EOHHS also relies on NHPRI's outside auditors who attest to the accuracy
    and validity ofNHPRI's financial statements, which incorporate the values of the managed care
    contract financial statements and calculations.

    If you have any questions or require any additional information please do not hesitate to contact
    me directly.

    Sincer ly,


       ~1/(2
     teven M.    (ostan~ino
    Secretary




Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode         10
Island Did Not Always Comply With Federal and State Requirements (A-01-12-00011)
